November 13, 2019
RECEIVED
Alireza Vazirabadi
843 Vaughn Street
Aurora, CO 80011
avazirabadi@yahoo.corn
720-218-4769

NOV 18 2019
THE CLERK

SUPREMECOURT, U.S.

Supreme Court of the United States
The Honorable Justice Sonia Sotomayor
1 First St NE
Washington, DC 20543
Re: Time Extension Request for Writ of Certiorari Petition—Vazirabadi v.
Denver Health & Hosp. Auth., No. 18-1411, 2019 WL 3522417 (10th Cir. 2019)
(unpublished).
Dear Honorable Justice Sotomayor,
This application is to request grant of 27 days' time extension, to file a Petition for
Writ of Certiorari in the above referenced case, in accordance with Supreme Court
Rule 30(2).
The Petitioner, pro se, timely appealed the district court decision in Vazirabadi v.
Denver Health & Hosp. Auth., District Court Case No.: 1 :17-cv-01737-RBJ,
which resulted in the Opinion of the Tenth Circuit Court of Appeals on August 2,
2019, in Case Number: 18-1411. Under FRAP Rule 35, Request for En Banc
Consideration and Rehearing was denied on September 4, 2019. Based upon the

Page 1 of 4

date of entry of the September 4, 2019 Order (See attached copy), the Petition for
Writ of Certiorari ("Petition") is due on December 3, 2019.
For 43 days, from September 4, 2019 that Request for En Banc and Rehearing was
denied, the Petitioner diligently was able to work on his Petition, until October 17,
2019. Meanwhile, the Petitioner has a separate appeal case pending in the Tenth
Circuit, in Vazirabadi v. Denver Public Schools ("DPS'), Case No. 19-1245.
On October 17,2019, DPS filed its Answer Brief, which required Petitioner's
entire time to diligently work on his Reply that was filed yesterday, November 12,
2019. As a result, Petitioner lost 26 days of his 90 days allowed time to diligently
work on his Petition that will be due December 3, 2019. In other word, he has only
20 days for his Petition.
Therefore, Petitioner, respectfully asks granted at least 27 days, until December 30,
2019 to file his Petition. As a pro se, the Petitioner has been working diligently
every step of the way in this process, and having this extra allowed time greatly
helps with better Petition for the Court's understanding and consideration.
For making this time extension request, Petitioner was unable to find any required
"conferral" with the opposing party, under Rules of The Supreme Court of The
United States. However, Petitioner still sought conferral, if in case required. The

Page 2 of 4

defendants object to this request, stating: "Defendants object to your requested
extension for filing your untimely writ." Attached is a copy of defendants' full
objection letter.
Petitioner does not find any prejudice for granting this brief extension of time, and
greatly appreciate'for the extra days needed.

Respectfully Submitted,
C.4
Alireza Vazirabadi, Petitioner, pro se
Dated: November 13, 2019

CC: See attached:
Copy of September 4, 2019 Denial Order for En Banc and Rehearing
Certificate of Service
Two extra copies of this letter
Copy of defendants' email objection letter

Page 3 of 4

